     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



June 24, 2011

Report Number: A-07-11-03165

Mr. Charles M. Palmer
Director
Iowa Department of Human Services
Hoover State Office Building, Fifth Floor
1305 East Walnut Street
Des Moines, IA 50319-0114

Dear Mr. Palmer:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in Iowa for the Quarter Ended March 31, 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-11-03165 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Charles M. Palmer


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




         REVIEW OF THE
QUARTERLY MEDICAID STATEMENT
    OF EXPENDITURES FOR THE
 MEDICAL ASSISTANCE PROGRAM
IN IOWA FOR THE QUARTER ENDED
         MARCH 31, 2009




                       Daniel R. Levinson
                        Inspector General

                           June 2011
                         A-07-11-03165
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Department of Human Services (the
State agency) administers the Medicaid program.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

SUMMARY OF FINDINGS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed in the eight reviewed line items (as well as a waiver), which totaled approximately
$524.2 million (approximately $361.2 million Federal share), was adequately supported by
actual recorded expenditures. However, the State agency incorrectly paid:

   •   $10,659 ($7,869 Federal share) for 58 outpatient and co-insurance claims that were
       duplicates of claims previously paid. These duplicate payments occurred due to errors in
       manual adjustments and data entry errors. The State agency recovered 50 of the 58
       duplicate payments totaling $9,500 ($7,014 Federal share) before the beginning of our
       review. Accordingly, $1,158 ($855 Federal share) of the incorrect payments had not
       been recovered prior to our identification of these duplicates.

   •   $9,249,304 ($6,828,761 Federal share) for two claims to different physicians because in
       each case the State agency copied the provider number into the amount to pay, a data
       entry error that resulted in payments up to 886 times higher than the next largest payment

                                                  i
       to any physician. The State agency identified the errors before the checks were cashed
       and canceled the payments before submission of the CMS-64 report. However, the
       identification of this error took place outside the framework of both the State agency’s
       existing policies and procedures and the internal controls that were in place at the time.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, these findings indicate that some policies and procedures, as well as some internal
controls, can be strengthened.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover the $1,158 ($855 Federal share) for the eight claims not recovered and

   •   continue to strengthen policies and procedures and internal controls, particularly those
       involving manual adjustments and data entry procedures, to ensure that Medicaid
       payments to providers are not duplicates and are reasonable for the procedures being
       performed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with both of our
recommendations and described corrective action that it had taken or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Medicaid Program .................................................................................................1
              American Recovery and Reinvestment Act of 2009..............................................1
              Quarterly Medicaid Statement of Expenditures for the
                 Medical Assistance Program ...........................................................................2
              Quarterly Medicaid Statement of Expenditures Oversight ...................................2
              Medicaid Management Information System .........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2
               Objective ................................................................................................................2
               Scope ......................................................................................................................2
               Methodology ..........................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

          DUPLICATE PAYMENTS ...............................................................................................4
               Federal Requirements ............................................................................................4
               Incorrect Provider Payments ..................................................................................5

          DATA ENTRY ERRORS .................................................................................................6
               Federal Requirements ............................................................................................6
               Incorrect Provider Payments ..................................................................................6

          INADEQUATE POLICIES AND PROCEDURES AND
             INTERNAL CONTROLS ...........................................................................................7

          RECOMMENDATIONS ...................................................................................................7

          STATE AGENCY COMMENTS ......................................................................................8

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements. In Iowa, the Department of Human Services (the State
agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of each State’s
claimed medical assistance costs under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), Public Law Number
111-5, enacted February 17, 2009, provides fiscal relief to States to protect and maintain State
Medicaid programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provides an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ FMAPs. 1
Section 5000 of the Recovery Act provides for these increases to help avert cuts in health care
payment rates, benefits, or services and to prevent changes to income eligibility requirements
that would reduce the number of individuals eligible for Medicaid. Sections 5001(a), (b), and (c)
of the Recovery Act provide that a State’s increased FMAP during the recession adjustment
period will be no less than its 2008 FMAP increased by 6.2 percentage points, and that a State
may receive an increase greater than 6.2 percentage points based on increases to its average
unemployment rate.

With the Recovery Act funding, Iowa’s FMAP for Medicaid costs increased from 62.62 percent
to 68.82 percent for the quarter ended March 31, 2009.




1
 The Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226) extended the recession adjustment period
for the increased FMAP through June 30, 2011.


                                                       1
Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

Quarterly Medicaid Statement of Expenditures Oversight

On a quarterly basis, CMS Regional office staff members perform a desk review on the amounts
reported on the CMS-64 report, a review that is designed to provide CMS with limited assurance
that the report complies with applicable Federal laws, regulations, and policy guidance and is
filed in compliance with CMS reporting requirements.

Medicaid Management Information System

Section 1903(R)(1) of the Act states that, to receive Federal funding for the use of automated
data systems in administration of the Medicaid program, a State must have a mechanized claims
processing and information retrieval system. Pursuant to chapter 11, section 11100, of the CMS
State Medicaid Manual, this mechanized system is the Medicaid Management Information
System (MMIS). An MMIS is a system of software and hardware used to process Medicaid
claims and manage information about Medicaid beneficiaries and services. This system may be
operated by either a State agency or a fiscal agent, which is a private contractor hired by the
State agency.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Scope

The State agency claimed Medicaid costs totaling approximately $557.4 million (approximately
$384.1 million Federal share) for the quarter ended March 31, 2009. Our review covered eight
judgmentally selected line items on the CMS-64 report totaling approximately $449.5 million
(approximately $309.8 million Federal share), which constituted approximately 80 percent of the
State agency’s claimed costs for the quarter. 2 The eight line items were for Inpatient Hospital
Services, Nursing Facilities Services, Physicians’ Services, Prescribed Drugs, Outpatient

2
  We obtained the costs that the State agency claimed and the judgmentally selected costs that we reviewed from the
Form 64.9 Base of the CMS-64 report; however, these amounts did not include adjustments. Although we reviewed
the adjustments for the eight selected line items, the net adjustments were immaterial.


                                                         2
Hospital Services, Intermediate Care Facility (Public), Intermediate Care (Private), and
Coinsurance.

In addition, the State agency claimed approximately $194.0 million (approximately
$134.0 million Federal share) in waivers. Of the claimed waivers, we judgmentally selected the
waiver that had the largest amount of associated costs (Waiver Number 15, Waiver Name “MR”)
that totaled approximately $74.7 million (approximately $51.4 million Federal share). 3 On the
basis of the costs associated with the eight judgmentally selected line items as well as the costs
associated with the selected waiver, we sampled a total of approximately $524.2 million
(approximately $361.2 million Federal share).

Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our internal control review to the State agency’s procedures for
aggregating and reporting Medicaid costs on the CMS-64 report for the quarter ended
March 31, 2009.

We conducted fieldwork at the State agency in Des Moines, Iowa, from March 1, 2010, through
March 5, 2010.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance, and applicable portions of
        the Iowa State Medicaid plan;

    •   interviewed CMS officials responsible for monitoring the CMS-64 report to gain an
        understanding of the process used by CMS to review the CMS-64 report;

    •   interviewed State agency officials to gain an understanding of their policies and
        procedures for reporting Medicaid costs on the CMS-64 report and of the systems used
        by the State agency for reporting Medicaid costs;

    •   judgmentally selected for review eight line items, whose costs comprised approximately
        80 percent of the total costs claimed on the base form of the CMS-64 report, as well as
        the waiver with the largest amount of associated costs;

    •   reviewed the CMS-64 report for the quarter ending March 31, 2009, and compared the
        amounts claimed for Federal reimbursement to the information in the State agency’s
        MMIS and to the State agency’s accounting records;



3
  We obtained the waiver-related costs that the State agency claimed and the judgmentally selected costs that we
reviewed from the Forms 64.9 Waiv on the CMS-64 report; however, these amounts did not include adjustments.
Although we reviewed the adjustments for the selected waiver, the net adjustments were immaterial.


                                                         3
   •   reviewed the information in the State agency’s MMIS to assess whether duplicate
       payments occurred and to identify any errors in the MMIS data; and

   •   discussed our results with the State agency on January 26, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed in the eight reviewed line items (as well as a waiver), which totaled approximately
$524.2 million (approximately $361.2 million Federal share), was adequately supported by
actual recorded expenditures. However, the State agency incorrectly paid:

   •   $10,659 ($7,869 Federal share) for 58 outpatient and co-insurance claims that were
       duplicates of claims previously paid. These duplicate payments occurred due to errors in
       manual adjustments and data entry errors. The State agency recovered 50 of the 58
       duplicate payments totaling $9,500 ($7,014 Federal share) before the beginning of our
       review. Accordingly, $1,158 ($855 Federal share) of the incorrect payments had not
       been recovered prior to our identification of these duplicates.

   •   $9,249,304 ($6,828,761 Federal share) for two claims to different physicians because in
       each case the State agency copied the provider number into the amount to pay, a data
       entry error that resulted in payments up to 886 times higher than the next largest payment
       to any physician. The State agency identified the errors before the checks were cashed
       and canceled the payments before submission of the CMS-64 report. However, the
       identification of this error took place outside the framework of both the State agency’s
       existing policies and procedures and the internal controls that were in place at the time.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, these findings indicate that some policies and procedures, as well as some internal
controls, can be strengthened.

DUPLICATE PAYMENTS

Federal Requirements

Section 1902(a) of the Act states: “A State plan for medical assistance must…. (37) provide for
claims payment procedures which … (B) provide for procedures of prepayment and postpayment
claims review, including review of appropriate data with respect to the recipient and provider


                                               4
of a service and the nature of the service for which payment is claimed, to ensure the proper and
efficient payment of claims and management of the program.”

Federal regulations at 42 CFR § 447.45 implement section 1902(a)(37) of the Act and state:
“(f) Prepayment and postpayment claims review. (1) For all claims, the agency must conduct
prepayment claims review consisting of … (iii) [v]erification that the claim does not duplicate or
conflict with one reviewed previously or currently being reviewed.” (Italics in original.)

Incorrect Provider Payments

The State agency incorrectly paid 58 outpatient and co-insurance claims to Medicaid providers
totaling $10,659 ($7,869 Federal share) for claims that were duplicates of claims previously paid.
These duplicate payments occurred due to errors in manual adjustments and data entry errors.
The State agency identified the following specific reasons why these errors occurred:

    •   Some providers submitted claims in hardcopy form without revenue codes and also
        submitted these claims electronically as either an inpatient or outpatient claim, which
        resulted in these claims being coded manually as Part B crossover claims and paid twice. 4

    •   The State agency’s MMIS did not check for duplicate payments when issuing gross
        adjustments. 5 Because these gross adjustments involved previously paid claims, they
        constituted duplicate payments.

    •   The State agency could not enter the procedure code into the MMIS because the
        procedure code was not annotated on the Explanation of Medicare Benefits paper form
        for that beneficiary.

    •   The State agency entered the incorrect procedure codes on the claims.

State agency officials informed us that as a result of these errors, the State agency implemented
the following procedures to reduce or eliminate duplicate payments (we did not verify these
corrective actions):

    •   Crossover claims that do not have procedure codes are returned to the provider for
        additional information. This procedure was implemented in October 2010.

    •   Claims editing has been implemented to increase edits that look at historical paid claims
        and access claim types for potential duplicates. This procedure was implemented in
        July 2010.



4
  A crossover claim is a claim that has been approved for payment by Medicare and sent to Medicaid for payment
towards the Medicaid deductible and coinsurance within the Medicaid program limits.
5
  Gross adjustment requests are force payments or recoupments generated within the MMIS. A gross adjustment
request does not have to be related to a specific claim.

                                                       5
   •   New data mining tools have been implemented to search for potential duplicate claims.
       This procedure was implemented in November 2010.

The State agency recovered 50 of the 58 duplicate payments totaling $9,500 ($7,014 Federal
share) before the beginning of our review. Accordingly, $1,158 ($855 Federal share) of the
incorrect payments had not been recovered prior to our identification of these duplicates.

DATA ENTRY ERRORS

Federal Requirements

Pursuant to 2 CFR pt. 225, Cost Principles for State, Local and Indian Tribal Governments
(formerly Office of Management and Budget Circular A-87), Appendix A, § C.2:

       Reasonable Costs. A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost. The question of
       reasonableness is particularly important when governmental units or components
       are predominately federally-funded. In determining reasonableness of a given
       cost, consideration shall be given to:

           a. Whether the cost was of a type generally recognized as ordinary and
              necessary for the operation of the governmental unit or the performance of
              the Federal award.

           b. The restraints or requirements imposed by such factors as: sound business
              practices; arm’s-length bargaining; Federal, State and other laws and
              regulations; and, terms and conditions of the Federal award.

           c. Market prices for comparable goods or services.

           d. Whether the individuals concerned acted with prudence in the
              circumstances considering their responsibilities to the governmental unit,
              its employees, the public at large, and the Federal Government.

           e. Significant deviations from the established practices of the governmental
              unit which may unjustifiably increase the Federal award’s cost.

The CMS State Medicaid Manual, section 11300, “General Requirements,” requires that each
State agency’s MMIS have minimum edits to ensure that the data field contents are proper,
accurate, and reasonable.

Incorrect Provider Payments

During our review, State agency officials made us aware of an error which they had identified
and corrected prior to the submission of the CMS-64 report for the quarter ended

                                               6
March 31, 2009. However, the identification of this error took place outside the framework of
both the State agency’s existing policies and procedures and the internal controls that were in
place at the time.

During the quarter under review, data entry errors at the State agency level (involving copying
and pasting of information) caused incorrect payments to be made to two physicians because in
each case the State agency copied the provider number into the amount to pay. The two errors
totaled a combined $9,249,304 ($6,828,761 Federal share). The State agency identified the
errors before the checks were cashed and cancelled the payments before submission of the
CMS-64 report. The amounts of the checks were far in excess of what the State agency would
reasonably pay to any physician for any procedure during our review period. The two checks
that were incorrectly issued to the two physicians were 16 times and 886 times, respectively,
more than the next largest payment made to any physician during our review period.

State agency personnel identified these data entry errors during an ad hoc review of stale dated
checks. 6 The State agency’s procedure was to review stale dated checks after 180 days
subsequent to their issuance. Because the two incorrect checks would not have been more than
180 days old at the time that the State agency submitted its CMS-64 report for that quarter, the
State agency’s procedure would not ordinarily have detected these incorrect payments.

State agency officials confirmed that the State agency did not have any official written policy or
procedure that would have prevented the error at the time of our audit. However, as a result of
this error, the State agency informed us that it subsequently instituted two new procedures:
(1) to review the 10 highest provider payments for each daily run cycle, and (2) to prohibit the
copying and pasting of information to the claims data during data entry. According to the State
agency, these procedures were implemented in April 2009.

INADEQUATE POLICIES AND PROCEDURES AND
INTERNAL CONTROLS

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, these findings indicate that some policies and procedures, as well as some internal
controls, can be strengthened.

RECOMMENDATIONS

We recommend that the State agency:

    •    recover the $1,158 ($855 Federal share) for the eight claims not recovered and

    •    continue to strengthen policies and procedures and internal controls, particularly those
         involving manual adjustments and data entry procedures, to ensure that Medicaid


6
 Stale dated checks are checks for which the financial institution has notified the issuer (in this case, the State
agency) that the checks have not been cashed.

                                                            7
       payments to providers are not duplicates and are reasonable for the procedures being
       performed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with both of our
recommendations and described corrective action that it had taken or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                               8
APPENDIX
                                                                                             Page lof4


                   APPENDIX: STATE AGENCY COMMENTS 





                                                       STATE OF IOWA 

TERRY E.BRANSTAD, GOVERNOR                               •.DEPARTMENT OF HU~N SERVICES,
KIM REYNOLDS, LT. GOVERNOR         MAY 13201'                      CHARLES M;PALMER, DIRECTOR



Patrick J. Cogley
Regional Insp$ctor General for Audit Services
Office of Inspector General
RegionVU             '.
601 East 12th Street, Room 0429
Kansas City, MO 64106

RE: Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program in Iowa, Report Number: A-07-11-03165

Dear Mr. Cogley:

Enclosed please find comments from the Iowa Department of Human Services (DHS) on the
April 20, 2011 draft report concerning Office ·of Inspector .General's (OIG) Review ofthe.
Quarterly Medicaid Statement of ExpendItures 'for the Medical A~stance Program}n Iowa.

DHS appreciates the opportunity to respond to the draft report and provide additional
comments to be included in the final report. Questions·about the attached response can be
addressed to:

       Jody Lane-Molnan. Executive Officer 

       Division of Fiscal Management 

       Iowa Department of HUman Services 

       Hoover State Office Building, 181 Floor SW 

       1305 E Walnut Street ' 

       Des Molnes,lA 50319-01.14 


       Email: jlanemo@dhs.state.ia.us 

       Phone: 515-281-6027 


Sincerely,




Charles M. Palmer
Director

cc: Greg Tambke, Audit Manager
Attachment




                      1305 E WALNUT STREET - DES MOINES, IA 50319-0114
                                                                                               Page 20f4




                                              -2­

                             Iowa Deparfinentof Human services 

                                ~esponse to OIG Draft Report 


                     Review of the Quarterly Statement of Expenditures 

                       For the Medical Assistance Program In Iowa 

                           Audit Report Number: A"()7·11"()3165 



Background

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administerS the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although
the State has considerable flexibjlity in designing and operating its Medicaid program, it rhust
comply with applicable Federal requirements. In Iowa; thf;t Department of HumliinServices
(the State agency) administers the Medicaid program.        '

The standard Form CM&64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used· by CMS to reimburse States for the Federal shJi~
of Medicaid expenditures.., The,amounts reported on the CMS--64 report and its attachments
must be actual expenditures with supporting documentation.

State Medicaid programs musf.provide certain medical services, including inpatient an9
outpatient hospital, physician, and family planning services. States also may offe~ certain
optional services, such as outpatient preScription drugs, as long as the services are inc;luded
in their approved State p l a n s . '                                               .

OIG Findings and     R~ommendation

For the quarter ended March 31,.2009, the majority ofthe Medicaid costs that the$tate
agency (OHS) claimed in the eight reviewed line items (as well as. a waiver), Which totaled
approximately $524.2 million (approximately $361.2 million Federal share), were in
accordance with Federal requirements and adequately supported by detailed records. '
However, the State.agency inco~ectlypaid;

    •     $10,659 ($7,869 Federal share) for 58 outpatientand co-insurance claims that were
        , duplicates of claims previously paid. These duplicate'payments occurred due to errors
          in manual adjustments and data entry errors. The State agency recovered 5f) of the 58
          duplicate payments totaling $9,500 ($7,014 Federal share)~fore the beginning of our
          review. Accordingly, $1,158 ($855 Federal share). of the incorrect payments had not
          been recovered prior to our identification of these dupHcat~.
                                                                                                 Page 3 of4




                                               -3­


    • 	 $9,249,304 ($6,828,761 Federal share) for two claims to different physicians b~t.ise '
        in ,each case the State agency copied the provider number into the amount to pay, a.
        data entry error that resulted. in payments up to 886 times higher than the next largest
        payment to any physician. The State agency identified the errors before the checks
        were cashed and canceled the payments before submissionoftheOMs-64 report.
        However,the identification of this error took place outside the frameWQl'kofboth the'
        State agency's existing pOlicies and procedures and the internal controls that were in
        place at the time.

  Although the'State agency's internal controls were adequate to ensure' that the majority of the
. Medicaid. costs that the State agenCy claimed and that were reviewed for this quarter were
  claimed correctly. these findings indicates that some p.olicies and procedures. as well as some
  internal controls, can be strengthened.            .                                       '

 OIG recommends that DHS:

    • 	 Recover the $1,158'{$855 Federal share) for the eight claims not recovered; and

    • 	 Continue to strengthen policies and procedures and intermit controls.. PlilrtIcularly those
         involving manual adjustments and data entry procedures, .to ensure that Medicaid
       . payments to providers are not duplicates and are reasonable for the procedures being
         performed.

 DHS Response

 DHS concurs with both of the recommendations as detailed below. Following are the
 corrective actions taken and planned for the findings:

    • 	 Upon issuance of the final report and formal request for repayment, DHS will work with
        the Kansas City Regional CMSoffJCeto make the ne~a,yadjustrnent to refund the
        federal share ($855) for the eight claims not recovered.

 Program improvements have been implemented and additional improvements are planned as
 specified in the following:     .

 Program Improvements Already Implemented

     •    Cross over claims that do nofhave procedure codes are returned to the provider for
         additional information. Tnis process was implemented in October 2010.

     • 	 Correct Coding Initiative (CCI) andclaims editing has been implemented to Increase
         the edits that look at historical paidctaims and across claim types for potential
         duplicates. CCI was implemented July 1,201'0.

     • 	 New data mining tools were implemented November 1t, 2010to perform look backs for
         duplicate claims.                                      ' .
                                                                                            Page 40f4




  • 	 Operatiooal procedures and policies have, been implemented to.prohibitid~ntified staff
      from using cut and paste keying wtlEmentering gross adjustments. This change was
  - . Implemented in April 2009.                  . ' .

  • 	 A report. was created that identifies the. top 10 payments each payment cycle. The
      report is reviewed to look for payments out of the ordinary. This was implemented in
      April 2009. It is not uncommon for inpatient claims to have large dollar amounts, so the
      report has since been modified to exclude claims that are electronically submitted and
      focus on claims that are manually keyed.                .

  • 	 Since July 2010, aI/ claim types from the weekly payment cycle for claims that appear
      to be "outUers"are being reviewed. The focus of this review is on claims paid that are
      higher than submitted charges and on the highest dollar amount of paid claims for each
      claim type. This has resulted in adding max un.its values to certain J~c.odes and
      surgery codes in the MMIS.                      .


Program Improvements Planned

  • 	 A planning process is underway to reqUire providers toenumerateoonSI$t&ntly
      between Medicare and Medicaid atthetfme the provider enrolls or~nrOlIs with
     Medicaid.
